No. 21IN THE

~upreme Qt:ourt of tbe fflniteb ~tates
MELECIA BALTAZAR-SEBASTIAN, PETITIONER
V.

UNITED STATES OF AMERICA

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
8,939 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2021.

. t.
Colin Casey Hogan
Wilson-Epes Printin Co., Inc.

